No. 20-107

In the Supreme Court of the United States
CEDAR POINT NURSERY
and FOWLER PACKING COMPANY, INC.,

Petitioners,
v.
VICTORIA HASSID, in her official capacity as,
Chair of the Agricultural Labor Relations Board; et al.,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of the Liberty Justice Center contains 3,261 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 7, 2021
/s/ Jeffrey M. Schwab
Jeffrey M. Schwab
Counsel of Record
LIBERTY JUSTICE CENTER
208 LaSalle St., Ste. 1690
Chicago, IL 60604
(312) 637-2280
jschwab@libertyjusticecenter.org

